<html>
<title> - ACCESS TO JUSTICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                          ACCESS TO JUSTICE

=======================================================================

                               EXCERPTED

                               FROM THE

                           2015 ANNUAL REPORT

                                 OF THE
                                 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                     Available via the World Wide Web: http://www.cecc.gov
                     
                               ___________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
98-306 PDF                 WASHINGTON : 2016                    

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>  




                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    MARCO RUBIO, Florida, Cochairman
Chairman                             JAMES LANKFORD, Oklahoma
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             BEN SASSE, Nebraska
TIMOTHY J. WALZ, Minnesota           SHERROD BROWN, Ohio
MARCY KAPTUR, Ohio                   DIANNE FEINSTEIN, California
MICHAEL M. HONDA, California         JEFF MERKLEY, Oregon
TED LIEU, California                 GARY PETERS, Michigan

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                           Access to Justice
 
                              Introduction

    Chinese citizens continued to turn to the legal system for 
help when they were harmed by environmental hazards,\1\ unsafe 
food,\2\ discrimination,\3\ and other causes.\4\ Chinese law 
allows citizens to use the legal system to dispute unlawful 
government acts.\5\ International human rights instruments, 
such as the Universal Declaration of Human Rights and the 
International Covenant on Civil and Political Rights, likewise 
call for the ability of citizens to obtain effective legal 
remedies when their rights are violated.\6\ During the 2015 
reporting year, however, the Commission observed a persistent 
gap between the Chinese government's rhetoric regarding the 
importance of laws and the actual ability of citizens to use 
the legal system to protect their rights.\7\ Recent judicial 
reforms indicate recognition by the Chinese government that the 
current system is dysfunctional,\8\ and official media has 
touted that the revised PRC Administrative Litigation Law 
``will make it easier for citizens to take the government to 
court.'' \9\ It is too soon, however, to determine fully the 
impact of these developments. Teng Biao, a Chinese lawyer, 
explained that ``[t]he major problem with rule of law in 
mainland China is not establishing legal provisions but rather 
implementing laws.'' \10\

                 The Fourth Plenum and Judicial Reforms

    In October 2014, the Chinese Communist Party's leaders 
gathered for the Fourth Plenum of the 18th Party Congress 
Central Committee and issued the Decision on Several Major 
Issues in Comprehensively Advancing Governance of the Country 
According to Law (Fourth Plenum Decision).\11\ The purposes of 
the Fourth Plenum Decision, according to the government's June 
2015 report on ``Progress in China's Human Rights in 2014,'' 
were ``to protect civic rights, to defend human dignity and to 
put basic human rights into practice.'' \12\ The Fourth Plenum 
Decision reportedly underscored President and Party General 
Secretary Xi Jinping's effort to boost public confidence in the 
legal system \13\ by outlining a number of structural reforms 
to judicial institutions, including: \14\

        <bullet>  Emphasizing that judges should not be removed 
        except for legal reasons and unless legal procedures 
        are followed; \15\
        <bullet>  Creating a ``lifetime'' (zhongshen) 
        responsibility system whereby judges are responsible 
        throughout their careers for cases that they 
        adjudicated; \16\
        <bullet>  Ensuring that courtroom hearings play a 
        decisive role in ascertaining facts and impartial 
        adjudication,\17\ which could entail reconsidering the 
        role of court ``adjudication committees'' (shenpan 
        weiyuanhui) that currently can instruct judges on how 
        to decide certain cases; \18\
        <bullet>  Introducing a model whereby judges are 
        promoted from lower courts; \19\
        <bullet>  Changing from a ``case filing review system'' 
        (li'an shencha zhi) to a ``case filing registration 
        system'' (li'an dengji zhi); \20\ and
        <bullet>  Establishing ``circuit tribunals'' (xunhui 
        fating) to try major administrative or civil commercial 
        cases involving more than one province.\21\ Two of 
        these tribunals reportedly heard their first cases by 
        May 2015.\22\

    The Fourth Plenum Decision also endorsed improving the 
legal aid system and expanding the scope of aid, with the 
stated objective of ensuring that citizens may obtain timely 
and effective legal assistance when their rights were infringed 
upon.\23\ This past year, the Commission observed efforts with 
respect to the provision of legal aid in at least one domestic 
violence case,\24\ a development that coincided with the public 
release of the draft PRC Anti-Domestic Violence Law.\25\ At 
present, however, the scope of government-funded legal aid 
remains limited. For example, free legal assistance is 
available to criminal defendants only when the defendant is 
facing life imprisonment or death \26\ or when certain 
vulnerable populations like minors or people who are blind, 
deaf, or mute are involved.\27\ Amendments to the laws 
governing civil and administrative cases that restrict the 
ability of non-lawyers to represent parties also reportedly may 
cause citizens to try to resolve their grievances outside the 
legal system.\28\ Such ``barefoot'' non-lawyers offer an 
alternative source of assistance when litigants cannot afford 
or find lawyers to take their cases.\29\
    In February 2015, the Supreme People's Court (SPC) publicly 
released its fourth five-year reform plan (SPC Reform 
Plan),\30\ which echoed themes in the Fourth Plenum 
Decision.\31\ The SPC Reform Plan called for establishing 
mechanisms to prevent official interference in judicial 
activities,\32\ but articles in state- and Party-run Chinese 
media emphasized that the Chinese government was not adopting a 
model of judicial independence based on the United States or 
other Western nations.\33\ SPC President Zhou Qiang said that 
courts must ``resolutely resist the influence of mistaken 
Western viewpoints and ways of thinking . . . .'' \34\ The 
Fourth Plenum Decision indicated the Party's continuing 
interaction with the courts by calling on the Party to 
``support the courts and procuratorates in exercising their 
functions and authorities independently and fairly according to 
the law.'' \35\ Furthermore, the Fourth Plenum Decision called 
on the Party's political-legal committees to continue to 
``ensure that China's Constitution and laws are implemented 
correctly and uniformly.'' \36\ Reports indicate that the 
committees' interference might be decreasing,\37\ but a spate 
of recent resignations by judges \38\ is attributed in part to 
complaints about outside interference in their work.\39\
    During the reporting year, the government and Party 
similarly took a hardline stance against ``Western'' 
constitutionalism,\40\ despite the Fourth Plenum Decision's use 
of language on the importance of China's Constitution \41\ and 
the Chinese government's declaration that ``Constitution Day'' 
would be commemorated on December 4.\42\ The ability of 
citizens to invoke the Constitution as a basis for challenging 
government actions remains limited.\43\ The National People's 
Congress Standing Committee has exclusive power to interpret 
and supervise enforcement of China's Constitution.\44\
    The extent to which the Fourth Plenum Decision and SPC 
Reform Plan will ultimately translate into concrete 
improvements in the judicial system remains unclear. Scholars 
have debated the significance of the Fourth Plenum Decision--
including what is meant by ``advancing governance of the 
country according to law'' \45\--when, as noted by scholars in 
a July 2015 Asia Policy roundtable, the Decision ``also 
underscores the [Party's] sustained leadership over the Chinese 
legal system.'' \46\ One U.S. expert on Chinese law raised 
questions concerning how to reconcile the Fourth Plenum 
Decision's support for the importance of the legal system with 
the crackdown on freedoms of expression, assembly, and 
association observed this past year.\47\

                         Judicial Transparency

    The theme of government transparency runs throughout the 
Fourth Plenum Decision.\48\ The Chinese government began 
implementing the Open Government Information Regulations in 
2008,\49\ but citizens have continued to face substantial 
obstacles when seeking information from the government.\50\ The 
SPC had likewise previously been slow to increase transparency 
and did not create a national online database until 2013.\51\ 
[For more information on government transparency, see Section 
III--Institutions of Democratic Governance.]
    This past year, the judiciary emphasized mechanisms for 
enhancing transparency. In March 2015, the SPC issued a white 
paper on judicial transparency that called for greater access 
to trials, increased use of electronic filing systems, and 
expanded access to case decisions.\52\ When releasing the white 
paper, He Xiaorong, office director of the SPC Judicial Reform 
Leading Group, told reporters that, by the end of 2014, Chinese 
courts had uploaded nearly six million court judgments to the 
public database.\53\ Access to such a vast pool of cases could 
help to ``develop a body of precedents to guide the legal 
community and create judicial transparency and accountability 
to address public concerns about the fairness of the litigation 
system,'' according to a December 2014 post on the American 
Chamber of Commerce in Shanghai website.\54\
    The SPC released its 10th batch of ``guiding cases'' in 
April 2015.\55\ In June 2015, the SPC issued rules specifying 
how judges should refer to guiding cases in subsequent 
cases.\56\ The rules explained that judges should respond when 
parties raise guiding cases when arguing their positions to the 
court,\57\ and SPC officials reportedly ``stressed the use of 
referential precedent to ensure fairer judgements.'' \58\

                 Citizen Petitioning and Revisions to 
                   the Administrative Litigation Law

    The PRC Administrative Litigation Law (ALL),\59\ which 
provides a framework for citizens to challenge government 
actions in court,\60\ underwent significant revisions during 
the past reporting year.\61\ Application of the law, which 
initially took effect 25 years ago,\62\ was hindered by common 
barriers referred to as the ``three difficulties'' (san nan): 
difficulties in filing cases, trying cases, and enforcing 
judgments.\63\ Following passage by the National People's 
Congress Standing Committee in November 2014, revisions to the 
ALL took effect on May 1, 2015.\64\ Revised provisions 
included, among others:

        <bullet> Expanding the scope of permitted cases by 
        eliminating the ``specific administrative act'' 
        requirement in the previous version of the ALL; \65\
        <bullet> Listing 12 areas for which legal proceedings 
        may be launched against the government, such as alleged 
        violations of agreements on land and housing 
        compensation, disputes over administrative detention, 
        and abuse of administrative power; \66\ and
        <bullet> Requiring that a representative of the 
        relevant administrative agency appear in court.\67\

    Announcement of the amendments was followed by an April 
2015 SPC interpretation that provided additional guidance on 
issues such as procedures for filing cases and examples of 
litigation demands that meet the legal standard.\68\ The 
Commission has not observed statistics establishing whether 
these recent reforms have begun to address long-standing 
obstacles to administrative cases.
    Chinese official media expressed hope that a byproduct of 
the ALL revisions would be to increasingly funnel citizen 
complaints away from the petitioning (xinfang) system--through 
which individuals with grievances seek redress from government 
officials \69\--and toward the courts.\70\ According to a 
November 2014 media report, more than 4 million petitions 
involving administrative disputes have been filed annually.\71\ 
Wang Cailiang, a lawyer and deputy director of the All China 
Lawyers Association Administrative Law Committee, told the 
media, ``With the [ALL] amendment, many more people would see 
the courts as an avenue to seek justice, instead of going to 
Beijing hoping to talk to officials.'' \72\
    The basic legal framework for the petitioning system--the 
2005 Regulations on Letters and Visits (2005 Regulations)--
remained unchanged during the 2015 reporting year.\73\ The 
Party and government continued to discuss proposals that were 
addressed during the 2014 reporting year,\74\ including with 
respect to channeling law and litigation-related petitions 
through legal channels \75\ and increasing the use of online 
petitioning.\76\ In May 2015, the Ministry of Justice issued 
the Opinion Regarding Further Strengthening Law- and 
Litigation-Related Petition Work and the Measures on Judicial 
and Administrative Agencies To Conclude Petitioning 
Matters.\77\ Also in May 2015, the State Bureau for Letters and 
Visits announced plans to consider drafting a petitioning law 
to improve the 2005 Regulations.\78\

                 Harassment and Abuse of Human Rights 
                      and Public Interest Lawyers

    During the 2015 reporting year, the Chinese government used 
criminal investigations and charges against citizens who 
engaged in activities that allegedly threatened the existing 
political system.\79\ Lawyers who represented people seeking to 
safeguard their rights \80\ also faced reprisals.\81\ In 
December 2014, for example, hundreds of lawyers signed a letter 
protesting the detention of lawyer Zhang Keke after he openly 
invoked in court the rights to freedom of speech and religion 
provided for in China's Constitution.\82\ In May 2015, the 
government charged public interest lawyer Pu Zhiqiang with 
``inciting ethnic hatred'' \83\ and ``picking quarrels and 
provoking trouble'' \84\ related to comments from his microblog 
accounts.\85\ Pu was among the 14 Chinese civil rights 
advocates profiled in a 2005 issue of the Hong Kong-based Asia 
Weekly.\86\ According to the Economist, ``All of the activists 
pictured on the magazine's cover have since been imprisoned, 
detained, beaten or threatened, except for one lawyer who had 
already fled the country into exile in Canada.'' \87\
    Other cases of concern during the 2015 reporting year 
included:

        <bullet>  Xia Lin. Public security officers in Beijing 
        municipality took lawyer Xia Lin into custody in 
        November 2014 and subsequently criminally detained him 
        on suspicion of ``fraud.'' \88\ Chinese Human Rights 
        Defenders raised concerns that Xia's ongoing detention 
        may be retaliation for representing Pu Zhiqiang and Guo 
        Yushan, founder of the NGO Transition Institute.\89\
        <bullet>  Tang Jingling. In May 2014, public security 
        officials in Baiyun district, Guangzhou city, Guangdong 
        province, took human rights lawyer Tang Jingling from 
        his home and later criminally detained him on suspicion 
        of ``picking quarrels and provoking trouble.'' \90\ 
        Authorities arrested Tang on the charge of ``inciting 
        subversion of state power.'' \91\ The trial of Tang and 
        two other rights advocates concluded in July 2015,\92\ 
        but authorities had not announced a verdict as of 
        September 2015. Tang gained prominence as a rights 
        lawyer working on cases related to land seizures and 
        corruption.\93\ His 2014 detention reportedly was 
        linked to a larger crackdown around the 25th 
        anniversary of the violent suppression of the 1989 
        Tiananmen protests.\94\
        <bullet>  Yu Wensheng. In October 2014, authorities 
        criminally detained Yu Wensheng, a well-known human 
        rights lawyer, on suspicion of ``picking quarrels and 
        provoking trouble.'' \95\ Reports suggested that Yu's 
        detention was linked to his efforts to meet with a 
        client whom authorities detained for his support of the 
        2014 pro-democracy protests in Hong Kong.\96\ 
        Authorities released Yu in January 2015,\97\ but his 
        wife issued a statement in June 2015 reporting that 
        domestic security officials had been harassing Yu and 
        his family at their home.\98\
        <bullet>  Qu Zhenhong. In May 2014, public security 
        officials in Beijing took into custody lawyer Qu 
        Zhenhong, the niece and defense counsel for Pu 
        Zhiqiang, on suspicion of ``illegally gathering 
        citizens' information.'' \99\ Following her formal 
        arrest, authorities released Qu on bail in May 
        2015.\100\

    Despite the personal risks underscored by the cases 
described above, lawyers continued to provide advice to 
citizens who sought to access the legal system during this 
reporting year in cases that involve issues such as religious 
freedom,\101\ opposition to forced eviction,\102\ and freedom 
of speech and association.\103\ The mainland China-based China 
Human Rights Lawyers Group, members of which provide legal 
services to citizens who have been detained for exercising 
their civil rights,\104\ marked its one-year anniversary in 
September 2014 with 225 participating lawyers.\105\


          july 2015 crackdown on rights lawyers and advocates


    Beginning on July 9, 2015, Chinese authorities took into 
custody more than 200 lawyers and rights advocates within a 48-
hour time period in what appeared to be a nationwide, 
coordinated crackdown.\106\ As of September 1, 2015, 
authorities from 24 provinces and provincial-level 
municipalities had summoned for questioning, harassed, 
prevented from leaving China, or had taken into custody at 
least 300 lawyers, law firm staff, rights advocates, and some 
of their family members; 23 remained in detention or were being 
held under `` `residential surveillance' in unknown 
locations,'' according to Chinese Human Rights Defenders.\107\ 
The crackdown received widespread condemnation from foreign 
governments,\108\ international non-governmental organizations 
and bar associations,\109\ and scholars.\110\ In a letter to 
Chinese President and Communist Party General Secretary Xi 
Jinping that urged the immediate release of all of the detained 
individuals in the crackdown, the New York City Bar Association 
noted, ``Chinese law and international standards protect the 
rights of lawyers in China both to practice their profession 
and to carry out their professional duties to clients free of 
government interference. These detentions violate those 
standards and undermine the rule of law.'' \111\ [For 
information on some of the detained lawyers' cases, see Section 
I--Findings--Access to Justice.]
    Notes to Section III--Access to Justice

    \1\ ``Landmark Case on Lead Poisoning in Children Begins in 
China,'' Reuters, reprinted in Guardian, 12 June 15; Alexandra Harney, 
``Lead Poisoning Lawsuit Tests China's Resolve Over Pollution,'' 
Reuters, reprinted in The Age, 6 May 15; ``Wuhan Residents' Pollution 
Case Filed Against Guodingshan Garbage Incinerator Plant Seeking 7 Yuan 
Compensation'' [Wuhan jumin gao guodingshan laji fenshao chang wuran 
huo li'an, suopei 7 yuan], The Paper, 18 April 15; ``5 Lanzhou 
Residents Suing `Lanzhou Veolia' Are Finally Able To File Case'' 
[Lanzhou 5 shimin su ``yang shuiwu'' zhong huo li'an], Legal Daily, 26 
February 15. For other examples of citizens attempting to use the legal 
system to address environmental concerns, see Dominique Patton, 
``Chinese Citizens Sue Government Over Transparency on Monsanto 
Herbicide,'' Reuters, 8 April 15; ``Court Hearing China's Landmark NGO 
Environmental Lawsuit,'' China Daily, 15 May 15.
    \2\ Zheng Caixiong, ``Half of Poisoned Food Cases Involved Pork,'' 
China Daily, 10 July 15. Under the revised Food Safety Law, violators 
are liable for compensation when they cause harm to consumers. National 
People's Congress, PRC Food Safety Law [Zhonghua renmin gongheguo 
shipin anquan fa], passed 28 February 09, amended 24 April 15, 
effective 1 October 15, arts. 126, 147, 148.
    \3\ China Labour Bulletin, ``Plaintiff Awarded 2,000 Yuan by Court 
in Hangzhou Gender Discrimination Case,'' 13 November 14; China Labour 
Bulletin, ``Plaintiff Obtains 30,000 Yuan in China's First Gender 
Discrimination Lawsuit,'' 9 January 14.
    \4\ Supreme People's Court, Supreme People's Court Work Report 
[Zuigao renmin fayuan gongzuo baogao], 12 March 15, 39. See also Susan 
Finder, ``Supreme People's Court President Says Court Reforms in `Deep 
Water Area,' '' Supreme People's Court Monitor (blog), 15 March 15.
    \5\ PRC Administrative Litigation Law [Zhonghua renmin gongheguo 
xingzheng susong fa], passed 4 April 89, amended 1 November 14, 
effective 1 May 15, art. 11; Supreme People's Court Interpretation 
Regarding Several Questions on the Application of the PRC 
Administrative Litigation Law [Zuigao renmin fayuan guanyu shiyong 
``zhonghua renmin gongheguo xingzheng susong fa'' ruogan wenti de 
jieshi], issued 20 April 15, effective 1 May 15, art. 1. See also Kevin 
J. O'Brien and Li Lianjiang, ``Suing the State: Administrative 
Litigation in Rural China,'' China Journal, No. 51 (January 2004).
    \6\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 8; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 2. China signed the ICCPR in 1998 but has 
not yet ratified it. ``Over One Hundred Lawyers and Citizens Urge 
National People's Congress To Ratify International Conventions on Human 
Rights and Enact Press Laws'' [Yu bai lushi ji gongmin yu renda pizhun 
guoji gongyue baozhang renquan ji banbu xinwen fa], Radio Free Asia, 10 
March 15.
    \7\ Rachel Lu, ``China's President Raises Eyebrows With Sharp 
Rhetoric on Rule of Law,'' Foreign Policy, TeaLeafNation (blog), 3 
February 15; Stanley Lubman, ``Chinese Rule of Law: The Rhetoric and 
the Reality,'' Wall Street Journal, China Real Time Report (blog), 4 
April 11.
    \8\ Susan Finder, ``China's Master Plan for Remaking Its Courts,'' 
The Diplomat, 26 March 15.
    \9\ Zhou Yu, ``Newly Amended Law Empowers Private Citizens To Sue 
Government,'' Global Times, 6 April 15. See also ``China Adopts 
Amendment to Administrative Procedure Law,'' Xinhua, 1 November 14; 
``Amendment to Administrative Procedure Law Hailed in China,'' Xinhua, 
24 December 13.
    \10\ ``Experts Pessimistic on CCP Fourth Plenum Proposals on Ruling 
the Country According to Law'' [Zhuanjia bu kanhao zhonggong si zhong 
quanhui tichu de yifa zhiguo], Radio Free Asia, 28 October 14.
    \11\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14. Various 
government agencies have issued follow-on documents. See, e.g., Supreme 
People's Procuratorate, Opinion Concerning Implementation of the 
``Chinese Communist Party Central Committee, Decision on Several Major 
Issues in Comprehensively Advancing Governance of the Country According 
to Law'' [Zuigao renmin jianchayuan guanyu guanche luoshi ``zhonggong 
zhongyang guanyu quanmian tuijin yifa zhiguo ruogan zhongda wenti de 
jueding'' de yijian], reprinted in Procuratorial Daily, 5 February 15; 
Supreme People's Court, Opinion Concerning Comprehensively Deepening 
People's Courts' Reform [Zuigao renmin fayuan guanyu quanmian shenhua 
renmin fayuan gaige de yijian], issued 26 February 15.
    \12\ State Council Information Office, ``Progress in China's Human 
Rights in 2014,'' reprinted in Xinhua, 8 June 15.
    \13\ ``Xi Stresses Boosting Public Confidence in Judicial System,'' 
Xinhua, 25 March 15; Luo Shuzhen, ``Have Strength To Reform and 
Innovate; Continue To Improve Judicial Credibility, Allow the People in 
Each Judicial Case To Have the Feeling of Fair Justice'' [Yongyu gaige 
chuangxin buduan tigao sifa gongxinli rang renmin qunzhong zai mei yi 
ge sifa tiaojian zhong dou ganshou dao gongping zhengyi], China Court 
Net, 8 May 15.
    \14\ For additional judicial reforms raised in the Fourth Plenum 
Decision, see Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
sec. 4 (``Guarantee Judicial Fairness, Raise Judicial Credibility''). 
The Fourth Plenum Decision did not propose increased centralization of 
court finances; instead, only limited local experimentation is 
underway. Wang Guibin, ``Shanghai Legal System Reform: Legal Inspection 
of Budget by Municipal Finance Bureau Administration'' [Shanghai sifa 
tizhi gaige: fajian yusuan you shi caizheng ju zhi guan], Beijing News, 
19 January 15; Supreme People's Court, ``Shanghai Deploys Pilot Program 
To Comprehensively Advance Legal System Reforms'' [Shanghai bushu 
quanmian tuijin sifa tizhi gaige shidian gongzuo], 24 April 15; Carl 
Minzner, ``Legal Reform in the Xi Jinping Era,'' Asia Policy, No. 20 
(July 2015), 6-7. Professor Donald Clarke noted that the centralization 
up to the provincial level of court finances and personnel appointments 
``is popular among [Chinese] legal academics but controversial among 
judges.'' Donald Clarke, ``The Fourth Plenum's `Decision': My Take,'' 
Chinese Law Prof Blog, 29 October 14. The centralization of court 
finances was reportedly considered following the Third Plenum of the 
18th Party Congress. See John Wagner Givens, Jamestown Foundation, 
``Fleshing Out the Third Plenum: The Direction of China's Legal 
Reform,'' China Brief, Vol. 14, No. 6, 21 March 14, 10.
    \15\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
4(1.3).
    \16\ Ibid., sec. 4(3.3).
    \17\ Ibid., sec. 4(3.2).
    \18\ Susan Finder, ``Where Is the Supreme People's Court Headed 
With Judicial Committee Reform?'' Supreme People's Court Monitor 
(blog), 21 December 14. For more information regarding the adjudication 
committee system and calls for its reform, see Zhu Lei, ``Committee 
Member Shi Jie's Proposal: Further Reform the System of Adjudication 
Committees'' [Shi jie weiyuan jianyi: jinyibu gaige shenpan weiyuanhui 
zhidu], Legal Daily, 6 March 15; Procedural Law Research Institute, 
China University of Political Science and Law, ``Consensus and 
Disagreement: Concerning Reform of the Court Adjudication Committee 
System'' [Gongshi yu fenqi: guanyu shenpan weiyuanhui zhidu gaige], 5 
May 15; ``Chen Ruihua: Mistakes in Justice--Comments on Court 
Adjudication Committee System'' [Chen ruihua: zhengyi de wuqu--ping 
fayuan shenpan weiyuanhui zhidu], Ai Sixiang, 11 October 11; Xin Frank 
He, ``China and Its Adjudication Committees,'' East Asia Forum, 3 
December 11.
    \19\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
6(1.3).
    \20\ Ibid., sec. 4(2.4). The Supreme People's Court subsequently 
issued provisions in April 2015. Zhang Ziyang, ``Supreme People's Court 
Issues `Provisions on Several Issues Regarding Case Registration and 
Filing' '' [Zuigao renmin fayuan gongbu ``guanyu renmin fayuan dengji 
li'an ruogan wenti de guiding''], Xinhua, reprinted in China News Net, 
16 April 15; Susan Finder, ``New Docketing Procedures Come to the 
Chinese Courts,'' Supreme People's Court Monitor (blog), 18 June 15.
    \21\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
4(2.3); Shannon Tiezzi, ``4 Things We Learned From China's 4th 
Plenum,'' The Diplomat, 23 October 14.
    \22\ ``Gavel Falls on Supreme People's Court First Circuit Court's 
First Case'' [Zuigao renmin fayuan diyi xunhui fating shou an luochui], 
People's Court Daily, reprinted in Xinhua, 5 May 15; ``Supreme People's 
Court Second Circuit Court Hears First Case in Shenyang'' [Zuigaofa 
di'er xunhui fating zai shenyang jin shen diyi an], China News Net, 
reprinted in People's Daily, 10 March 15.
    \23\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
5(3).
    \24\ See, e.g., ``Bozhou Establishes First Domestic Violence 
Shelter, Women Injured by Domestic Violence Can Receive Legal Aid'' 
[Bozhou chengli shoujia fan jiabao bihusuo; jiabao shouhai funu ke huo 
de falu yuanzhu], Bozhou Daily, reprinted in Hefei Hotline, 5 May 15.
    \25\ State Council Legislative Affairs Office, PRC Anti-Domestic 
Violence Law (Draft) (Draft for Comment) [Zhonghua renmin gongheguo fan 
jiating baoli fa (cao'an) (zhengqiu yijian gao)], 25 November 14; Simon 
Denyer, ``Battered Women in China Could Finally Get a Measure of Legal 
Protection,'' Washington Post, 6 March 15; ``China's Draft Domestic 
Violence Law `Largely Cosmetic': Feminists,'' Radio Free Asia, 30 July 
15; Liu Rong, ``Standing Committee of the National People's Congress 
Today Convened Its 16th Meeting, Anti-Domestic Violence Law Is Publicly 
Revealed'' [Quanguo renda changweihui jin zhaokai 16 ci hui fan jiabao 
fa chu liangxiang], People's Daily, reprinted in National People's 
Congress News Net, 24 August 15. For a report on how ordinary Chinese 
view domestic violence, see ``Heard in the Hutong: How Chinese View 
Domestic Violence,'' Wall Street Journal, China Real Time Report 
(blog), 8 May 15.
    \26\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 34. See also Dui Hua Foundation, ``China's 
New Criminal Procedure Law: Death Penalty Procedures,'' Dui Hua Human 
Rights Journal, 3 April 12.
    \27\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 34, 266. See also ``New Issues and 
Countermeasures for Criminal Law Legal Aid System Following Revisions'' 
[Xingshi falu yuanzhu zhidu xiuding hou de xin wenti ji duice], China 
Court Net, reprinted in China Legal Aid Net, 13 May 14. For an example 
of a pro bono legal aid program see `` `Assistance Plan for the 
Wronged' Starting on Friday'' [``Mengyuanzhe yuanzhu jihua'' ben zhouwu 
qidong], Beijing Shangquan Law Firm (blog), 20 May 14.
    \28\ Aaron Halegua, ``China's Restrictions on Barefoot Lawyers 
Could Backfire,'' South China Morning Post, 29 March 15.
    \29\ Ibid.
    \30\ Supreme People's Court, Opinion on Comprehensively Deepening 
Reform of the People's Courts--Fourth Five-Year Outline for Reform of 
the People's Courts (2014-2018) [Zuigao renmin fayuan guanyu quanmian 
shenhua renmin fayuan gaige de yijian--renmin fayuan disi ge wu nian 
gaige gangyao (2014-2018)], 4 February 15; Xu Juan, ``Supreme People's 
Court Releases Post-Revision `Fourth Five-Year Reform Plan' '' 
[Zuigaofa fabu xiuding hou de ``si wu gaige gangyao''], People's Daily, 
27 February 15. The Ministry of Public Security, Supreme People's 
Procuratorate, and the Ministry of Justice also issued reform plans. 
``Comprehensively Deepening Public Security Reform Includes 
Cancellation of Temporary Residency Permit System Among 15 Prominent 
Highlights'' [Quanmian shenhua gong'an gaige han'gai quxiao zanzhuzheng 
zhidu deng 15 ge tuchu liangdian], People's Daily, reprinted in Legal 
Daily, 16 February 15; ``Opinion Concerning Deepening Procuratorial 
Reforms (2013-2017 Work Plan) (2015 Revised Edition)'' [Guanyu shenhua 
jiancha gaige de yijian (2013-2017 nian gongzuo guihua) (2015 nian 
xiudingban)], Procuratorial Daily, 26 February 15; ``Outline of the 
Procuratorate Reform Plan,'' translated in China Law Translate (blog), 
27 February 15; Ministry of Justice, ``Ministry of Justice: Fully Exert 
Judicial and Administrative Offices' Functional Roles, Earnestly 
Complete Comprehensive Advancements Towards Rule of Law in All Work'' 
[Sifabu: chongfen fahui sifa xingzheng jiguan zhineng zuoyong, renzhen 
zuo hao quanmian tuijin yifa zhiguo gexiang gongzuo], 17 March 15.
    \31\ See, e.g., Supreme People's Court, Opinion on Comprehensively 
Deepening Reform of the People's Courts--Fourth Five-Year Outline for 
Reform of the People's Courts (2014-2018) [Zuigao renmin fayuan guanyu 
quanmian shenhua renmin fayuan gaige de yijian--renmin fayuan disi ge 
wu nian gaige gangyao (2014-2018)], 4 February 15, sec. 3(3)17; Chinese 
Communist Party Central Committee, Decision on Several Major Issues in 
Comprehensively Advancing Governance of the Country According to Law 
[Zhonggong zhongyang guanyu quanmian tuijin yifa zhiguo ruogan zhongda 
wenti de jueding], issued 23 October 14.
    \32\ Supreme People's Court, Opinion on Comprehensively Deepening 
Reform of the People's Courts--Fourth Five-Year Outline for Reform of 
the People's Courts (2014-2018) [Zuigao renmin fayuan guanyu quanmian 
shenhua renmin fayuan gaige de yijian--renmin fayuan disi ge wu nian 
gaige gangyao (2014-2018)], 4 February 15, para. 55. See also ``China 
Regulates Against Officials' Judicial Meddling,'' Xinhua, 30 March 15; 
Xing Shiwei, ``Leading Cadres' Lawbreaking and Judicial Interference 
Can Lead to Criminal Responsibility'' [Lingdao ganbu weifa ganyu sifa 
ke zhui xing ze], Beijing News, 31 March 15.
    \33\ Zhang Chunxian, ``Zhang Chunxian: Comprehensively Advance 
Ruling Xinjiang According to Law'' [Zhang chunxian: quanmian tuijin 
yifa zhi jiang], People's Daily, 7 January 15; Liu Ruifu, ``The 
Fundamental Differences Between China's Independent, Impartial Justice 
and Western Countries' `Judicial Independence' '' [Woguo duli gongzheng 
sifa yu xifang guojia ``sifa duli'' de genben qubie], Seeking Truth, 
reprinted in Xinhua, 26 December 14. See also Qian Gang, ``Who Gave 
`Judicial Independence' a Death Sentence?'' China Media Project, 14 
January 15; Sui-Lee Wee, ``China's Top Court Says No to West's Model of 
Judicial Independence,'' Reuters, 26 February 15.
    \34\ Wen Yaqiong, ``Supreme People's Court: Distinguish Clearly 
Between Western `Judicial Independence' and `Separation of Powers' '' 
[Zuigaofa: huaqing yu xifang ``sifa duli'' ``san quan dingli,'' 
jiexian], China Internet Information Center, 25 February 15; Josh Chin, 
``Don't Call It Western, China's Top Court Unveils Vision for Reform,'' 
Wall Street Journal, China Real Time Report (blog), 26 February 15.
    \35\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
4(1).
    \36\ Ibid., sec.7(1).
    \37\ ``Political-Legal Committees Carry Out 11 Reforms This Year: 
Leaders' Interference in Judicial Process Will Be Recorded'' 
[Zhengfawei jinnian jinxing 11 xiang gaige: lingdao ganyu sifa yao 
jilu], Xinhua, reprinted in Sina, 22 January 15; Qiu Rui, ``Mainland 
Political-Legal Committees Show Signs of Reform'' [Dalu zhengfawei 
xianlu gaige jixiang], Phoenix Weekly, 19 January 15; Keith Zhai, 
``Communist Party Committees Are Meddling Less in Courtrooms: Judges,'' 
South China Morning Post, 12 December 13; Song Shijing and Li 
Xiangrong, ``Politics and Law Committee Reform Accelerates, Advocating 
Rule of Law Thinking and Non-Intervention in Specific Cases'' 
[Zhengfawei gaige jiasu, changdao fazhi siwei bu jieru juti anjian], 
Beijing News, reprinted in People's Daily, 23 October 14. For a report 
on opposing views, see ``China's Judicial Reforms Won't Shake Party 
Hold on Courts: Experts,'' Radio Free Asia, 31 March 15.
    \38\ Ren Zhongyuan and Huang Ziyi, ``Shortage of Judges, Court 
Panic: Things Are Changing'' [Faguan huang, fayuan huang: shiqing zheng 
zai qi bianhua], Southern Weekend, 17 April 15; Wu Lina, ``Loss of 
Judges Serious, Can Salary Alone Get Modern `Judge Bao' To Stay?'' 
[Faguan liushi yanzhong dandu xinchou nengfou liuzhu xiandai ``bao 
gong''], Xinhua, reprinted in China Court Network, 15 April 15.
    \39\ Tan Mintao, ``Judicial Reforms Are Coming, Why Do Judges Still 
Want To Resign? '' [Sifa gaige lai le, faguan weihe hai yao cizhi?], 
Consensus Net, 16 April 15; Stanley Lubman, ``China's Exodus of 
Judges,'' Wall Street Journal, China Real Time Report (blog), 4 May 15. 
See also ``Legal Window: Resignations of Chinese Judges Reflect Deep 
Problems'' [Falu chuangkou: zhongguo faguan cizhi zheshe shengce 
wenti], Voice of America, 5 June 15.
    \40\ ``People's Daily: Blindly Following Western So-Called 
`Constitutional Government' Is Nothing More Than Cutting Feet To Fit 
the Shoes'' [Renmin ribao: mangmu gen xifang suowei ``xianzheng'' pao 
wuyi xuezushilu], People's Daily, reprinted in China News, 5 February 
15; Minxin Pei, ``China's War on Western Values,'' Project Syndicate, 
10 February 15. See also Jacques deLisle, ``The Rule of Law with Xi-Era 
Characteristics: Law for Economic Reform, Anticorruption, and Illiberal 
Politics,'' Asia Policy, No. 20 (July 2015), 28. For a contrasting view 
on recent discussions of constitutionalism, see Cheng Li, ``Fourth 
Plenum Has Opened Up Discourse on Constitutionalism, Governance,'' 
China's Transition, Bloomberg Brief, October 2014, 8.
    \41\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 2.
    \42\ Guo Junkui, `` `National Constitution Day' Strengthens the 
Constitution's Supreme Idea'' [``Guojia xianfa ri'' qianghua xianfa 
zhishang de linian], People's Daily, 4 December 14; State Council 
Information Office, ``Progress in China's Human Rights in 2014,'' 
reprinted in Xinhua, 8 June 15, sec. 3(1). See also ``On China's First 
Constitution Day, Distance From Constitutional Rule Remains Great'' 
[Zhongguo shou ge xianfa ri juli xingzheng reng yaoyuan], Radio Free 
Asia, 4 December 14.
    \43\ ``China's Constitution `Useless' Without Enforcement: 
Lawyers,'' Radio Free Asia, 4 December 14; Otto Malmgren, ``Article 37: 
The Right to Liberty of Person Under the Chinese Constitution,'' China-
EU Law Journal, Vol. 2, No. 1-2 (September 2013), 42-43; Jerome A. 
Cohen, ``A Constitutional Court for China? Taiwan's Example,'' US-Asia 
Law Institute, New York University School of Law, 28 October 09. See 
also Joanna Chiu, ``China's Constitutional Crisis,'' Atlantic, 3 
September 13.
    \44\ ``NPC's Power of Supervision,'' Xinhua, reprinted in China 
Daily, 3 March 15; Keith J. Hand, ``An Assessment of Socialist 
Constitutional Supervision Models and Prospects for a Constitutional 
Supervision Committee in China: The Constitution as Commander?'' Social 
Science Research Network, 29 June 15, revised 25 July 15, last visited 
3 August 15, 1. See also Gui Tiantian, ``Former Supreme People's Court 
President Proposes Adding Constitutional Committee to the National 
People's Congress'' [Zuigao fayuan yuan yuanzhang jianyi zai quanguo 
renda zengshe xianfa weiyuanhui], Beijing Youth Daily, reprinted in 
People's Daily, 8 November 14. China does not have a constitutional 
court or specialized committee within the National People's Congress 
for examining constitutional issues.
    \45\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14. See, 
e.g., Jerome A. Cohen, ``China's Socialist Rule of Law Still Offers 
Real Hope of Improvements to Legal System,'' New York University School 
of Law, US-Asia Law Institute, 5 November 14; Elizabeth C. Economy, 
``Is China Committed to Rule of Law?'' Council on Foreign Relations, 29 
October 14; ``YCW Conversation--Legal Reform in China,'' Young China 
Watchers, 28 April 15.
    \46\ ``Roundtable: The Future of `Rule According to Law' in 
China,'' Asia Policy, No. 20 (July 2015), 3. Participants in the 
roundtable were Carl Minzner, Donald Clarke, Ling Li, Jacques deLisle, 
Kjeld Erik Brog<dsgaard, and Stanley Lubman. See also Donald Clarke, 
``China's Legal System and the Fourth Plenum,'' Asia Policy, No. 20 
(July 2015), 10; Fang Yiyan, ``Looking Over `Rule of Law,' Dirt on the 
Back of the Coin'' [Fankan ``yifa zhiguo'' yingbi beimian de wugou], 
Human Rights in China Chinese Biweekly Journal, No. 146, 25 December 
14.
    \47\ Stanley Lubman, ``As China Cracks Down on Dissidents, It Also 
Promises Legal Reform,'' Wall Street Journal, China Real Time Report 
(blog), 28 November 14.
    \48\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, secs. 1, 
2, 3, 4(4). See also Jamie P. Horsely, ``China's Leaders Endorse 
Disclosure as the `Norm,' '' FreedomInfo.Org, 4 November 14.
    \49\ ``China Commits to `Open Government Information' Effective May 
1, 2008,'' CECC China Human Rights and Rule of Law Update, May 2008, 2.
    \50\ ``Right To Know,'' Economist, 3 May 14. For reports on the 
success of lawsuits filed against the government, see Zhao Fuduo, 
``Provincial Success Rates of `Citizens Suing Officials' Show Large 
Differences'' [``Min gao guan'' shengsulu shengji chayi da], Caixin, 12 
December 14; Fang Qing, ``In Government Information Disclosure 
Lawsuits, 12 Percent of Citizens Suing Officials Are Successful'' 
[Zhengfu xinxi gongkai susong 12% ``min gao guan'' shengsu], Guangzhou 
Daily, 23 January 15. A notable information disclosure request from the 
reporting year was that of the mother of Xu Chunhe, a man shot by 
police on a train platform in Heilongjiang province. ``Qing'an Police 
Accept Lawyer's Information Disclosure Application in Shooting Case'' 
[Qing'an jingfang jieshou qiangji an lushi xinxi gongkai shenqing], 
Sina, 11 May 15; ``Official Publication of Xu Chunhe Video Fails To 
Quell Controversy, Lawyer Applies to Police for Information 
Disclosure'' [Guanfang gongbu xu chunhe shipin reng wei neng pingxi 
zhengyi lushi xiang jingfang shenqing xinxi gongkai], Radio Free Asia, 
15 May 15. See also ``Woman To Sue Over Police Killing of Her Son in 
China's Heilongjiang,'' Radio Free Asia, 12 May 15; Xu Ai and Cheng 
Zilong, ``On the Trail of the `Qing'an Train Station Incident' '' 
[``Qing'an huoche zhan shijian'' zhuizong], Xinhua, 14 May 15; Kiki 
Zhao, ``China Clears Police Officer in Death of Unarmed Man, but 
Controversy Isn't Over,'' New York Times, Sinosphere (blog), 15 May 15. 
For another example of citizens trying to use the courts to obtain 
information from a government agency, see ``Lawyer Requests Publication 
of Information on Train Ticket Refund Fee Hikes Case'' [Lushi shenqing 
huoche tuipiao fei zhangjia xinxi gongkai an], Southern Weekend, 22 
December 14; Wan Xuezhong and Yu Yingbo, ``Refund Ticket Fee Hike 
Information Publication Trial Suspended'' [Tuipiao fei zhangjia xinxi 
gongkai an zhongzhi shenli], Legal Daily, 12 December 14.
    \51\ ``Chinese Courts Publish Judgement Documents Online,'' Xinhua, 
27 November 13; Riva Gold, ``Big Move? China's Highest Court Flirts 
With Transparency,'' Wall Street Journal, China Real Time Report 
(blog), 4 July 13. See also Dui Hua Foundation, ``China Plots National 
Verdict Database,'' Dui Hua Human Rights Journal, 14 May 13; Liu 
Changsong, ``Publishing Court Decisions Will Help Reduce Judicial 
Corruption'' [Gongkai caipan wenshu liyu jianshao sifa fubai], Beijing 
News, 12 May 13.
    \52\ Supreme People's Court, Judicial Transparency of Chinese 
Courts: Chinese-English Juxtaposed [Zhongguo fayuan de sifa gongkai: 
hanying duizhao] (Beijing: People's Court Press, 2015), 38-41, 44-46. 
See also Supreme People's Court, ``Press Release Draft on the Situation 
Regarding Judicial Transparency of Chinese Courts (White Paper)'' 
[Guanyu zhongguo fayuan de sifa gongkai (baipishu) youguan qingkuang de 
xinwen fabu gao], 10 March 15; ``China Issues White Paper on Judicial 
Transparency,'' Xinhua, reprinted in China Daily, 10 March 15; 
``China's Supreme People's Court Issues First Judicial Transparency 
White Paper'' [Zhongguo zuigaofa fabu shou ge sifa gongkai baipishu], 
Radio Free Asia, 10 March 15.
    \53\ Supreme People's Court, ``Press Release Draft on the Situation 
Regarding Judicial Transparency of Chinese Courts (White Paper)'' 
[Guanyu zhongguo fayuan de sifa gongkai (baipishu) youguan qingkuang de 
xinwen fabu gao], 10 March 15. See also ``China Voice: Achievements 
Made in Building Transparent Judicial System,'' Xinhua, 10 March 15; 
Supreme People's Court, Judicial Opinions of China, last visited 18 
July 15.
    \54\ Michael Vella and Vincent Li, ``Judicial Reform Brings Rule of 
Law Under Spotlight,'' Insight: The Voice of the American Chamber of 
Commerce in Shanghai, 8 December 14.
    \55\ Supreme People's Court Circular Regarding Publication of Tenth 
Batch of Guiding Cases [Zuigao renmin fayuan guanyu fabu dishi pi 
zhidaoxing anli de tongzhi], issued 15 April 15. When issuing the first 
set of cases, the Supreme People's Court (SPC) noted the role of the 
guiding case system in helping all walks of life understand the courts' 
work. Circular of the Supreme People's Court on Issuing the First Set 
of Guiding Cases [Zuigao renmin fayuan guanyu fabu diyi pi zhidaoxing 
anli de tongzhi], issued 20 December 11. For a discussion of the 
reasons why the SPC initiated the guiding case system, see Wang Hong, 
``Building a Guiding Precedents System With Chinese Characteristics,'' 
Mirror, 7 December 12, translated in Dui Hua Foundation, ``Can China's 
Legal Reform Survive Without Judicial Independence?'' Dui Hua Human 
Rights Journal, 20 December 12.
    \56\ Supreme People's Court, Implementing Details on the Supreme 
People's Court Provisions on Case Guidance Work [Zuigao renmin fayuan 
guanyu anli zhidao gongzuo de guiding shishi xize], issued 13 May 15, 
reprinted in China Internet Information Center; Stanford University Law 
School, ``Breaking News: China's Supreme Court Explains How To Cite 
Guiding Cases,'' China Guiding Cases Project (blog), 5 June 15.
    \57\ Supreme People's Court, Implementing Details on the Supreme 
People's Court Provisions on Case Guidance Work [Zuigao renmin fayuan 
guanyu anli zhidao gongzuo de guiding shishi xize], issued 13 May 15, 
reprinted in China Internet Information Center, art. 11.
    \58\ ``China's Top Court Stresses Referential Precedent for 
Justice,'' Xinhua, reprinted in China Daily, 2 June 15. See also 
``China's Supreme Court Launches Case-Tracking Website,'' Xinhua, 14 
November 14. According to this Xinhua report, the courts also increased 
transparency of the adjudication process by introducing a website that 
allows parties to track the progress of their cases.
    \59\ PRC Administrative Litigation Law [Zhonghua renmin gongheguo 
xingzheng susong fa], passed 4 April 89, amended 1 November 14, 
effective 1 May 15. The Chinese government also passed revisions to the 
PRC Legislation Law during the 2015 reporting year. PRC Legislation Law 
[Zhonghua renmin gongheguo lifa fa], passed 15 March 00, amended 15 
March 15, effective 15 March 15. See also ``Authorized Release of the 
Two Sessions: Decision of the National People's Congress Concerning 
Revision of the `PRC Legislation Law' '' [Lianghui shouquan fabu: 
quanguo renmin daibiao dahui guanyu xiugai ``zhonghua renmin gongheguo 
lifa fa'' de jueding], Xinhua, 15 March 15; ``China Adopts Revision to 
Legislation Law,'' Xinhua, 15 March 15; Jiang Ling et al., 
``Legislative Law Revised, Where Are the Highlights'' [Xiugai lifa fa 
liangdian dou zai na], People's Daily, 9 March 15. The revised law 
includes provisions on releasing draft laws for public comment. PRC 
Administrative Litigation Law [Zhonghua renmin gongheguo xingzheng 
susong fa], passed 4 April 89, amended 1 November 14, effective 1 May 
15, art. 37; Qiu Shi and Laney Zhang, Law Library of Congress, ``China: 
Law on Legislation Amended,'' Library of Congress Global Legal Monitor, 
8 July 15. The Chinese government has not yet passed the long-discussed 
Administrative Procedure Law. Xing Shiwei, ``Professor of Law: China 
Should Quickly Enact the `Administrative Procedure Law' '' [Fa da 
jiaoshou: woguo ying zhuajin zhiding ``xingzheng chengxu fa''], Beijing 
News, 31 October 14.
    \60\ Peng Dongyu, ``Strengthening Protection of Citizens' 
Administrative Litigation Power'' [Qianghua dui gongmin xingzheng 
susong quanli de baohu], China National People's Congress Magazine, No. 
22, reprinted in National People's Congress, December 2012; ``Editor's 
Notes: PRC, Administrative Litigation Law,'' China Law & Practice, last 
visited 18 July 15; Kevin J. O'Brien and Li Lianjiang, ``Suing the 
Local State: Administrative Litigation in Rural China,'' China Journal, 
No. 51 (January 2004).
    \61\ Wang Cailiang, ``Amended Administrative Litigation Law and 
Administrating in Accordance With Law'' [Xingzheng susong fa xiugai yu 
yifa xingzheng], Caijing, Wang Cailiang (blog), 3 May 15; Wu Peng and 
Hu Jinguang, ``The Amended `Administrative Litigation Law' and 
Constructing a Rule of Law Country'' [``Xingzheng susong fa'' xiugai yu 
fazhi guojia jianshe], Journal of the Chinese Academy of Governance, 
reprinted in People's Daily, Chinese Communist Party News, 30 January 
15.
    \62\ PRC Administrative Litigation Law [Zhonghua renmin gongheguo 
xingzheng susong fa], passed 4 April 89, amended 1 November 14, 
effective 1 May 15.
    \63\ Sun Ying, ``Hopes That the New `Administrative Litigation Law' 
and the Implementation of Judicial Interpretations Will Resolve the 
Three Difficulties of Administrative Lawsuits Against Officials'' [Xin 
``xingzheng susong fa'' ji sifa jieshi shixing youwang jiejue min gao 
guan san nan], China National Radio, reprinted in China Daily, 1 May 
15. See also He Haibo, ``Litigations Without a Ruling: The Predicament 
of Administrative Law in China,'' Tsinghua China Law Review, Vol. 3, 
No. 2 (2011), 257.
    \64\ ``National People's Congress Standing Committee Decision 
Concerning Revision of the `PRC Administrative Litigation Law' '' 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu xiugai 
``zhonghua renmin gongheguo xingzheng susong fa'' de jueding], Xinhua, 
reprinted in National People's Congress, 1 November 14.
    \65\ Ibid., item 60.
    \66\ Ibid., item 4.
    \67\ Ibid., item 3. See also ``China Amends Law To Support Citizens 
Suing Gov't,'' Xinhua, reprinted in China Daily, 1 November 14.
    \68\ Supreme People's Court, ``Supreme People's Court 
Interpretation Regarding Several Questions on the Application of the 
PRC Administrative Litigation Law'' [Zuigao renmin fayuan guanyu 
shiyong zhonghua renmin gongheguo xingzheng susong fa ruogan wenti de 
jieshi], 27 April 15; ``Courts Can Judge the Legality of Red-Header 
Documents'' [Fayuan ke panding hongtou wenjian shifou hefa], China 
Youth Daily, 28 April 15.
    \69\ Carl F. Minzner, ``Xinfang: An Alternative to Formal Chinese 
Legal Institutions,'' Stanford Journal of International Law, Vol. 42 
(2006), 103-79.
    \70\ ``Amending the Administrative Litigation Law: Getting Through 
the `Three Difficulties' Will Allow People To Trust the Law Instead of 
Petitions'' [Xingzheng susong xiu fa: datong ``san nan'' rang 
laobaixing xinfa bu xinfang], Procuratorate Daily, reprinted in 
People's Daily, National People's Congress News, 3 November 14. See 
also He Haibo, ``Expectations Following the `Administrative Litigation 
Law' Revision'' [``Xingzheng susong fa'' xiugai zhihou de xuannian], 
Caixin, 5 December 14.
    \71\ Sun Gan, `` `Citizens Suing Officials: Petition Cases Exceed 4 
Million Annually'' [``Min gao guan'' xinfang anjian nian chao 400 wan 
jian], Beijing Times, 5 November 14.
    \72\ Adrian Wan, ``Revised Law Means It's Now Easier To Sue Than 
Petition Governments,'' South China Morning Post, 2 November 14.
    \73\ State Council, Regulations on Letters and Visits [Xinfang 
tiaoli], issued 5 January 05, effective 1 May 05.
    \74\ CECC, 2014 Annual Report, 9 October 14, 158-59.
    \75\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
5(4.2); Ministry of Justice, ``Ministry of Justice Issues a Set of 
Documents on Law- and Litigation-Related Petitions Reforms'' [Sifabu 
yinfa shefa shesu xinfang gaige peitao wenjian], 6 May 15; State Bureau 
for Letters and Visits, ``Publicity Announcement for the 10th 
Anniversary of the Revision of the `Petition Regulations' '' [``Xinfang 
tiaoli'' xiuding shishi 10 zhounian xuanchuan zuopin zhengji qishi], 24 
March 15. See also State Bureau for Letters and Visits, ``Announcement 
Evaluating the Results of the Collecting of Works for `These Ten Years 
of the Regulations' '' [``Tiaoli zhe shi nian'' zhengji zuopin pingshen 
jieguo gongbao], 24 April 15. For examples of articles in state- and 
Party-run media on protracted efforts to reform the petitioning system, 
see Bai Yang, ``China's Petitioning Reforms Strive To Break Through 
Petitioning's `Last Kilometer' '' [Woguo xinfang gaige litu datong 
xinfang ``zuihou yi gongli zhi du''], Xinhua, 31 May 15; Li Bin, 
``Petitioning Reforms Are Aimed at a Rule of Law Target'' [Xinfang 
gaige dang miaozhun fazhi de baxin], People's Daily, 4 June 15.
    \76\ Huang Lu, ``During Inspection of Provincial Bureau of Letters 
and Visits, Fu Dehui Emphasizes: Make Online Petitioning the Main 
Channel for Petitioning'' [Fu dehui diaoyan sheng xinfang ju shi 
qiangdiao: ba wangshang xinfang da zaocheng xinfang gongzuo zhu qudao], 
Sina News, 10 July 15; Wang Jianhua, ``Build Rule of Law Petitioning, 
Sunshine Petitioning, and Responsible Petitioning'' [Dazao fazhi 
xinfang, yangguang xinfang he zeren xinfang], State Bureau for Letters 
and Visits, 8 June 15.
    \77\ Ministry of Justice, ``Ministry of Justice Issues a Set of 
Documents on Law- and Litigation-Related Petitions Reforms'' [Sifabu 
yinfa shefa shesu xinfang gaige peitao wenjian], 6 May 15. See also 
``Chinese Judicial Departments To Better Handle Petitions,'' Xinhua, 8 
May 15; ``Ministry of Justice Clarifies Standards for Finalizing 
Petitioner Matters: Guarding Against Unlimited Appeals Without a Final 
Resolution'' [Sifabu mingque xinfang shixiang zhongjie biaozhun; fang 
zhong er bu jie wuxian shensu], Xinhua, 6 May 15.
    \78\ Sun Wenjing, ``Cabinet Said To Approve Study for Law on 
Public's Gripes Against Gov't,'' Caixin, 14 May 15; State Council, 
Regulations on Letters and Visits [Xinfang tiaoli], issued 5 January 
05, effective 1 May 05.
    \79\ See, e.g., ``Police in China's Guangdong Move Ahead With 
Activist's Subversion Trial,'' Radio Free Asia, 30 April 15; ``Sichuan 
Rights Defense Advocate Chen Yunfei Formally Arrested After 35 Days in 
Custody'' [Sichuan weiquan renshi chen yunfei juya 35 tian hou zao 
pibu], BBC, 3 May 15; Tom Phillips, ``Chinese Police Seize `Warm-
Hearted' Tiananmen Activist,'' Telegraph, 2 April 15; Didi Kirsten 
Tatlow, ``Beijing Police Recommend Charges Against Civil Society 
Advocates,'' New York Times, Sinosphere (blog), 28 April 15. In June 
2015, two former senior staff members of the non-governmental 
organization Beijing Yirenping Center were detained on suspicion of 
``illegal business activity.'' ``Refile: China Detains Two Rights 
Activists in Widening Crackdown,'' Deutsche Presse-Agentur 
International, 15 June 15; ``Two Public Interest Figures Taken Into 
Custody for `Illegal Business Activity' '' [Liang gongyi renshi bei yi 
``feifa jingying zui'' zhuabu], Radio Free Asia, 14 June 15. See also 
Xin Lin and Wen Jian, ``More Than 1,000 Supporters Call for the Release 
of Rights Activist,'' Radio Free Asia, 3 July 15; Rights Defense 
Network, ``Parents of Those Harmed by Vaccines Start Donation 
Activities in Support of Public Interest Volunteer Yang Zhanqing'' 
[Yimiao shouhai jiazhang faqi juankuan shengyuan gongyi zhiyuanzhe yang 
zhanqing xingdong], 24 June 15; Tom Phillips, ``Fears of New Crackdown 
as China Holds Two Former Members of Rights Group,'' Guardian, 15 June 
15.
    \80\ For academic analyses on the various types of Chinese lawyers 
involved in cases that fall under the general umbrella of rights 
protection, see, e.g., Fu Hualing, ``Human Rights Lawyering in Chinese 
Courtrooms,'' Chinese Journal of Comparative Law, Vol. 2, No. 2 
(October 2014), 270-88 (analyzing human rights lawyering in China based 
on three ideal types: moderate lawyering, critical lawyering, and 
radical lawyering); Eva Pils, China's Human Rights Lawyers: Advocacy 
and Resistance (New York: Routledge, 2015), 47-51; Fu Hualing and 
Richard Cullen, ``Weiquan (Rights Protection) Lawyering in an 
Authoritarian State: Building a Culture of Public Interest Lawyering,'' 
China Journal, No. 59 (January 2008), 111; Sida Liu and Terence C. 
Halliday, ``Political Liberalism and Political Embeddedness: 
Understanding Politics in the Work of Chinese Criminal Defense 
Lawyers,'' Law & Society Review, Vol. 45, No. 4 (December 2011), 831-
66.
    \81\ ``China's Legal Profession Had `Worst Year Ever' in 2014,'' 
Radio Free Asia, 20 January 15.
    \82\ ``Chinese Lawyer Detained for Invoking Constitution,'' 
Associated Press, 12 December 14.
    \83\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 249.
    \84\ Ibid., art. 293; Interpretation of the Supreme People's Court 
and the Supreme People's Procuratorate on Several Issues Concerning the 
Application of Law in the Handling of Criminal Cases of Picking 
Quarrels and Provoking Trouble [Zuigao renmin fayuan, zuigao renmin 
jianchayuan guanyu banli xunxin zishi xingshi anjian shiyong falu 
ruogan wenti de jieshi], 15 July 13; Jeremy Daum, ``Quick Note on 
`Picking Quarrels,' '' China Law Translate (blog), 6 May 14.
    \85\ ``VOA Connects: Pu Zhiqiang Charged on Suspicion of Inciting 
Ethnic Hatred, Picking Quarrels and Provoking Trouble'' [VOA lianxian: 
pu zhiqiang bei yi shexian shandong minzu chouhen, xunxin zishi zui 
qisu], Voice of America, 15 May 15; Zhang Qianfan, ``Conviction for 
One's Words Is a Legal Travesty'' [Yi yan dingzui shi fazhi daji], 
Financial Times, 22 May 15; Perry Link, ``China: Inventing a Crime,'' 
New York Review of Books (blog), 9 February 15.
    \86\ ``China's Rights Defense Lawyers Elected as `Men of the Year' 
'' [Zhongguo weiquan lushi dangxuan ``fengyun renwu''], Radio Free 
Asia, 19 December 05.
    \87\ ``And the Law Won,'' Economist, 23 May 15. For more 
information on several of these individuals, see the following records 
in the Commission's Political Prisoner Database: 2005-00291 on Gao 
Zhisheng, 2011-00183 on Teng Biao, 2004-04744 on Zheng Enchong, 2014-
00174 on Pu Zhiqiang, 2005-00027 on Guo Guoting, 2005-000198 on Zhu 
Jiuhu, 2005-00199 on Xu Zhiyong, 2005-00143 on Yang Maodong (also known 
as Guo Feixiong), 2005-00001 on Li Baiguang, 2010-00738 on Fan Yafeng, 
and 2005-00126 on Chen Guangcheng.
    \88\ ``Rights Defense Lawyer Xia Lin Criminally Detained on 
Suspicion of `Fraud' '' [Weiquan lushi xia lin yin she ``zhapian zui'' 
bei xingju], Radio Free Asia, 17 November 14. For more information on 
Xia Lin, see the Commission's Political Prisoner Database record 2014-
00432.
    \89\ Chinese Human Rights Defenders, ``Authorities Retaliate 
Against 2 Lawyers for Representing Detained Activists,'' 14 November 
14; Chinese Human Rights Defenders, ``Xia Lin,'' 16 February 15.
    \90\ Rights Defense Network, ``Guangzhou Tang Jingling, Yuan 
Xinting Arrests Approved by Authorities on Suspicion of `Inciting 
Subversion of State Power' '' [Guangzhou tang jingling, yuan xinting 
bei dangju yi shexian ``shandong dianfu guojia zhengquan zui'' pi bu], 
21 June 14. For more information on Tang Jingling, see the Commission's 
Political Prisoner Database record 2011-00255.
    \91\ Rights Defense Network, ``Tang Jingling Inciting Subversion 
Case Trial Opens in Guangzhou, Adjourns Midday Without Judgment'' [Tang 
jingling dianfu an guangzhou kaishen, zhouwu xiuting wei panjue], 19 
June 15.
    \92\ Tang Jingling, ``Excerpt from Tang Jingling's Self Defense and 
Final Statement at Trial'' [Tang jingling zai fating shang suo zuode 
``ziwo bianhu he zuihou chenshu''], reprinted in Human Rights in China, 
24 July 15; ``Former Teacher Tells Court of Torture as Guangzhou Three 
Subversion Trial Ends,'' Radio Free Asia, 24 July 15; Mimi Lau, ``Tight 
Security as Trial Resumes of Chinese Rights Lawyer and Activists 
Charged With Subversion,'' South China Morning Post, 23 July 15; Dan 
Levin, ``Trial of Chinese Rights Campaigners on Subversion Charges 
Continues,'' New York Times, 24 July 15.
    \93\ ``Rights Lawyer Tang Jingling Detained Ahead of Tiananmen 
Anniversary,'' Associated Press and Agence France-Presse, reprinted in 
South China Morning Post, 16 May 14.
    \94\ Ibid.
    \95\ ``Human Rights Lawyer Yu Wensheng Criminally Detained for 
Dispute at Fengtai Detention Center for Attempting To Exercise Right of 
Lawyer To Meet With Client'' [Renquan lushi yu wensheng beijing fengtai 
kanshousuo zheng lushi huijian quan bei xingju], Boxun, 24 October 14; 
Civil Rights & Livelihood Watch, ``Lawyer Wang Cheng and Citizen Song 
Ze Seized in Beijing With Lawyer Yu'' [Wang cheng lushi gongmin song ze 
zai beijing yu yu lushi yitong bei zhua], 14 October 14. For more 
information on Yu Wensheng, see the Commission's Political Prisoner 
Database record 2014-00387.
    \96\ Rights Defense Network, ``Solemn Declaration Strongly 
Condemning Beijing Municipality Police's Illegal Seizure of Lawyer Yu 
Wensheng'' [Guanyu qianglie qianze beijing shi jingfang feifa zhuabu yu 
wensheng lushi de yanzheng shengming], 13 October 14.
    \97\ Rights Defense Network, ``Rights Defense Lawyer Yu Wensheng 
Released from Prison on January 20: 29 Citizens Still Locked Up in This 
Wave'' [Weiquan lushi yu wensheng 1 yue 20 ri huoshi chuyu: ci bo bei 
zhua gongmin hai you 29 ren bei guanya], 22 January 15.
    \98\ ``Lawyer's Wife Xu Yan Issues Statement Protesting State 
Security Captain's Harassment and Threats'' [Lushi qizi xu yan fabiao 
shengming kangyi guobao duizhang saorao weixie], Radio Free Asia, 16 
June 15.
    \99\ ``China Holds Two More Rights Lawyers Under Criminal 
Detention,'' Radio Free Asia, 16 May 14. For more information on Qu 
Zhenhong, see the Commission's Political Prisoner Database record 2014-
00179.
    \100\ ``Pu Zhiqiang's Niece, Qu Zhenhong, Released on Bail'' [Pu 
zhiqiang waishengnu qu zhenhong qubao huoshi], BBC, 18 May 15.
    \101\ See, e.g., Yaxue Cao and Yaqiu Wang, ``14 Cases Exemplify the 
Role Played by Lawyers in the Rights Defense Movement, 2003-2015,'' 
China Change, 19 August 15; ``Announcement on the Establishment of a 
Legal Backup Group for the Jiansanjiang Cases'' [Jiansanjiang anjian 
falu houyuantuan chengli gonggao], Boxun, 7 January 15; Luo Ya, ``Eight 
Lawyers Brave Possible Beating To Defend Falun Gong,'' Epoch Times, 18 
December 14.
    \102\ See, e.g., Yaxue Cao and Yaqiu Wang, ``14 Cases Exemplify the 
Role Played by Lawyers in the Rights Defense Movement, 2003-2015,'' 
China Change, 19 August 15.
    \103\ See, e.g., ``Tohti Verdict Upheld,'' Global Times, 22 
November 14; ``Human Rights Lawyer Yu Wensheng Criminally Detained for 
Dispute at Fengtai Detention Center for Attempting To Exercise Right of 
Lawyer To Meet With Client'' [Renquan lushi yu wensheng beijing fengtai 
kanshousuo zheng lushi huijian quan bei xingju], Boxun, 24 October 14; 
``In One Step Forward, Chinese Authorities Release Zhang Miao, an 
Employee at the German Weekly Die Zeit, and in One Step Backward, 
[They] Arrest Zhang Miao's Rights Lawyer Zhou Shifeng'' [Zhongguo 
dangju qianjiao shifang wei deguo shidai zhoukan gongzuo de zhang miao 
houjiao jiu daibu zhang miao de weiquan lushi zhou shifeng], Radio 
France Internationale, 10 July 15.
    \104\ Rights Defense Network, ``Mainland Lawyers Issue Public 
Announcement Regarding Formation of the Chinese Lawyers Group for the 
`Protection of Human Rights' '' [Dalu lushi fabu zhongguo ``baozhang 
renquan'' lushi fuwutuan chengli gonggao], 14 September 13.
    \105\ ``China Human Rights Lawyers Group Celebrates First 
Anniversary With 225 Members'' [Zhongguo renquan lushi tuan chengli yi 
zhou nian chengyuan zeng zhi 225 ren], Radio Free Asia, 13 September 
14.
    \106\ Josh Chin and Te-Ping Chen, ``China Targets Human-Rights 
Lawyers in Crackdown,'' Wall Street Journal, 12 July 15; Human Rights 
Watch, ``China: Secretly Detained Lawyers at Risk of Torture,'' 20 July 
15. See also ``China's Missing Rights Lawyers,'' New York Times, 8 
August 15; China Human Rights Lawyers Concern Group, ``As of 20:00 25 
July 2015, At Least 255 Lawyers/Law Firm Staff/Human Rights Activists 
Have Been Detained/Arrested/Incommunicado/Summoned/Restricted Freedom 
Temporarily,'' 25 July 15.
    \107\ For the total number of individuals detained as of September 
1, 2015, see Chinese Human Rights Defenders, ``Individuals Affected by 
July 10 Crackdown on Rights Lawyers,'' 13 July 15, last visited 1 
September 15. See also Chinese Human Rights Lawyers Concern Group, ``As 
of 18:00 28th August 2015, At Least 277 Lawyers/Law Firm Staff/Human 
Right[s] Activists/Family Members Have Been Detained/Arrested/
Incommunicado/House Arrested/Forbidden To Leave the Country/Questioned/
Summoned/Restricted Freedom Temporarily,'' 28 August 15.
    \108\ See, e.g., John Kirby, U.S. Department of State, ``U.S. 
Condemns Detention of Human Rights Defenders in China,'' 12 July 15; 
Canada Department of Foreign Affairs, Trade and Development, ``Canada 
Gravely Concerned by Detention and Disappearance of Lawyers and 
Activists in China,'' 16 July 15; Department of Foreign Affairs and 
Trade, Commonwealth of Australia, ``Recent Human Rights Developments in 
China,'' 17 July 15; Federal Foreign Office, Federal Republic of 
Germany, ``Human Rights Commissioner Strasser Condemns the Arrest of 
Scores of Lawyers in China,'' 14 July 15. Inter-governmental 
organizations also expressed concerns about the arrests. See, e.g., 
European External Action Service, European Union, ``Statement by the 
Spokesperson on Recent Developments in the Human Rights Situation in 
China,'' 17 July 15; United Nations Office of the High Commissioner for 
Human Rights, `` `Lawyers Need To Be Protected Not Harassed'--UN 
Experts Urge China To Halt Detentions,'' 16 July 15.
    \109\ See, e.g., China Labour Bulletin et al., ``China: Open Letter 
to States for Joint Action To Address Worsening Crackdown on Human 
Rights Defenders and Lawyers,'' 10 August 15, reprinted in Chinese 
Human Rights Defenders, 12 August 15 (joint letter from China Labour 
Bulletin, Chinese Human Rights Defenders, Federation Internationale des 
Droits de l'Homme, Human Rights in China, Human Rights Watch, 
International Campaign for Tibet, International Service for Human 
Rights); Freedom House, ``China Detentions and Repatriations Violate 
Basic Rights,'' 14 July 15; Amnesty International, ``China: Lawyers 
Face 15 Years in Jail on `Chilling' State Security Charges,'' 16 July 
15; The Law Society of England and Wales, ``Law Society Urges China To 
Release Lawyers Arrested in `Crackdown,' '' 15 July 15; Japan 
Federation of Bar Associations, ``Bar Federation Condemns China's 
Detention of Lawyers,'' 26 July 15; Law Council of Australia, ``Law 
Council Deeply Concerned with `Crackdown' Against Lawyers in China,'' 
17 July 15; New York City Bar Association, ``City Bar Voices Grave 
Concern Over Treatment of Rights Lawyers in China,'' 44th Street Blog, 
10 August 15; American Bar Association, ``ABA President William C. 
Hubbard Statement on Lawyers in China,'' 3 August 15. Organizations 
based in Hong Kong and Taiwan also expressed concerns about the 
arrests. See Foreign Correspondents' Club, Hong Kong, ``FCCHK Statement 
on the Detention of Human Rights Lawyers in China,'' 17 July 15; Hong 
Kong Bar Association, ``Statement of Hong Kong Bar Association on 
Reports of Multiple Arrests Made of Mainland Legal Professionals,'' 18 
July 15; Taiwan Bar Association, ``Statement of the Entire Association 
on Mainland China's Arrests and Other [Measures Against] Rights Defense 
Lawyers'' [Jiu zhongguo dalu dui weiquan lushi jin daibu deng zhi quan 
lianhui shengmin shu], 21 July 15.
    \110\ ``Dozens of Human Rights Groups Condemn China's Repeated 
Violations of Legal Procedures, Hong Kong Academics Join for First Time 
To Petition for Detained Lawyers'' [Shushi renquan tuanti qianze 
zhongguo zaici weifan falu chengxu xianggang xuejie shou canyu lianshu 
shengyuan lushi], Radio Free Asia, 12 July 15; ``China's `Rule by Law' 
Takes an Ugly Turn: A ChinaFile Conversation,'' Asia Society, ChinaFile 
(blog), 14 July 15; Josh Chin and Te-Ping Chen, ``China Targets Human-
Rights Lawyers in Crackdown,'' Wall Street Journal, 12 July 15. As 
reported in the Wall Street Journal, Professor Jerome Cohen of New York 
University School of Law ``described the recent sweep as `insane,' '' 
noting that ``China's leaders must be in desperate straits to engage in 
this extraordinary, coordinated attack on human-rights lawyers.''
    \111\ New York City Bar Association, ``City Bar Voices Grave 
Concern Over Treatment of Rights Lawyers in China,'' 44th Street Blog, 
10 August 15.
</pre></body></html>
<script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script>